No. 19-123
IN THE

Supreme Court of the United States
>>>>

SHARONELL FULTON, et al.,
Petitioners,
v.

CITY

OF

PHILADELPHIA, et al.,
Respondents.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit

BRIEF OF AMICI CURIAE
FAMILY EQUALITY AND PFLAG NATIONAL
IN SUPPORT OF RESPONDENTS
Katherine Keating
Counsel of Record
BRYAN CAVE LEIGHTON
PAISNER LLP
Three Embarcardero Center
7th Floor
San Francisco, California 94111
415-675-3400
katherine.keating@bclplaw.com

William J. Hibsher
Elizabeth Goldberg
Laith Hamdan
Michael Neville
BRYAN CAVE LEIGHTON
PAISNER LLP
1290 Avenue of the Americas
New York, New York 10104
212-541-2000
wjhibsher@bclplaw.com
elizabeth.goldberg@bclplaw.com
laith.hamdan@bclplaw.com
michael.neville@bclplaw.com

Counsel for Amici Curiae
Family Equality and PFLAG National
(Additional Counsel on the Reverse)
August 20, 2020

Shelbi D. Day
Mary P. Rohmiller
Denise E. Brogan-Kator
FAMILY EQUALITY
475 Park Avenue South, Suite 2100
New York, New York 10016
646-880-3005
sday@familyequality.org
mrohmiller@familyequality.org
dbrogan-kator@familyequality.org

i
INTEREST OF AMICI CURIAE1
Amici curiae are not-for-profit organizations
that work to promote the best interests of youth in
the child welfare system by seeking equality in access
to foster and adoption services for our country’s
diverse families, in particular those comprised of
lesbian, gay, bisexual, transgender, or queer
(LGBTQ) parents – including same-sex couples – and
their children. This brief underscores the harm
inflicted on children and families by sanctioning
discrimination against same-sex couples seeking to
become foster parents, as illustrated by the
experiences of same-sex couples and LGBTQ adults
who have fostered or adopted children, or tried to
foster or adopt.
Family Equality (formerly Family Equality
Council) is a national organization that connects,
supports, and represents LGBTQ parents and their
children. The organization is committed to changing
attitudes and policies to ensure that all families are
respected, loved, and celebrated. For over 40 years,
Family Equality has been a community of parents,
children, grandparents, and grandchildren, reaching
across the country and raising voices toward fairness
for all families. Family Equality spearheads the
Every Child Deserves a Family Campaign, a national
Written consent to the filing of this brief has been granted
by all parties. No counsel for a party authored this brief, in
whole or in part, and no person other than amici curiae, their
members, and their counsel made any monetary contribution to
fund the preparation or submission of this brief.
1

ii
effort to end anti-LGBTQ discrimination in the child
welfare system and promote the best interests of all
children in the foster care and adoption system by
increasing their access to loving and stable temporary
and permanent homes. Family Equality submits this
brief on behalf of all of the LGBTQ parents and samesex couples with whom it has worked.
Founded
in
1973,
PFLAG
National
(“PFLAG”) is the first and largest organization for
LGBTQ+ people, their parents and families, and
allies. With over 400 chapters and nearly 250,000
members
and
supporters
crossing
multiple
generations of families in major urban centers, small
cities, and rural areas across America, PFLAG is
committed to creating a world where diversity is
celebrated and all people are respected, valued, and
affirmed. As Co-Chair of the Every Child Deserves a
Family Campaign, PFLAG is committed to ensuring
that everyone who seeks or wishes to foster or adopt
can do so without discrimination.

iii
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE .................................. i
TABLE OF AUTHORITIES ........................................ v
SUMMARY OF ARGUMENT ..................................... 1
ARGUMENT ................................................................ 4
I.

ALLOWING FOSTER CARE
AGENCIES TO DISCRIMINATE
AGAINST SAME-SEX COUPLES
HARMS CHILDREN BY LIMITING
THEIR OPPORTUNITIES TO BE
PLACED WITH A LOVING FAMILY .......... 4
A.

Discriminating Against Same-Sex
Couples Harms Children by
Deterring LGBTQ Adults from
Serving as Foster Parents ...................... 7

B.

Discriminating Against Same-Sex
Couples Harms Children by
Preventing Would-Be Placements ....... 11

C.

Discriminating Against Same-Sex
Couples Harms Children By
Delaying Placements and
Permanency .......................................... 17

iv
II. WHEN DISCRIMINATION DOES NOT
STAND IN THE WAY, SAME-SEX
COUPLES PROVIDE SAFE AND
LOVING HOMES FOR CHILDREN
WHO DESPERATELY NEED THEM ........ 25
III. LGBTQ FOSTER PARENTS HELP
MEET THE DIVERSE AND UNIQUE
NEEDS OF CHILDREN IN CARE............. 32
CONCLUSION........................................................... 37

v
TABLE OF AUTHORITIES
Page(s)
Cases
Brown v. Bd. of Educ.,
347 U.S. 483 (1954) ................................................ 8
Obergefell v. Hodges,
135 S.Ct. 2584 (2015) ........................................... 26
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) ................................................ 8
United States v. Windsor,
570 U.S. 744 (2013) ................................................ 8
Other Authorities
The Adoption and Foster Care Analysis and
Reporting System Report, U.S. DEPT. OF
HEALTH & HUMAN SERVICES: CHILDREN’S
BUREAU (Oct. 24, 2019) .......................................... 4
Emily Wax-Thibodeaux, ‘We Are Just Destroying
These Kids’: The Foster Children Growing
Up Inside Detention Centers, THE
WASHINGTON POST (Dec. 30, 2019)......................... 4
Expanding Resources For Waiting Children II:
Eliminating Legal and Practice Barriers to
Gay and Lesbian Adoption from Foster Care,
EVAN B. DONALDSON ADOPTION INSTITUTE
(Sept. 2008) ............................................................. 5

vi
Michael E. Lamb, Mothers, Fathers, Families,
and Circumstances: Factors Affecting
Children’s Adjustment, 16 APPLIED DEV. SCI.
98 (2012) ............................................................... 26
Shoshana K. Goldberg & Kerith J. Conron,
How Many Same-Sex Couples in the U.S. Are
Raising Children?, THE WILLIAMS INSTITUTE:
UCLA SCHOOL OF LAW (July 2018) ........................ 5
Teresa Wiltz, As Need Grows, States Try to
Entice New Foster Parents, THE PEW
CHARITABLE TRUSTS (Mar. 1, 2019) ....................... 4

SUMMARY OF ARGUMENT
[The boy we spent more than four years trying to
adopt is now 15. He] has not been allowed to develop
life skills, and has autism – we know his chances of
adoption are low. It breaks our hearts to know that …
we could have provided him a loving, stable,
financially secure home with opportunities and a
support network to set him up for success. Instead, he
is likely to age out of foster care without a family.
Discrimination [because we are a same-sex couple]
robbed him of a family to rely on.
Christopher Matos-Rogers (Atlanta, Georgia)1
The case that weighs most on my mind is the 9-yearold boy in Michigan we inquired about in 2014. His
caseworker stated that they would not consider a
same-sex couple as a placement for the child. At least
once a year since then, I have checked … and even
today, [six] years later, he is still in foster care and
listed as available for adoption. He never got the
chance to meet us, but I hope he at least knows that
there is a family out there who cares and wanted to
adopt him.
Valarie St. John (Detroit, Michigan)2

Christopher Matos-Rogers Statement to Family Equality
(July 28, 2020). All statements cited in this brief are on file with
amicus Family Equality and the undersigned counsel.
1

Valarie St. John Statement to Family Equality (Dec. 12 &
13, 2019).
2

2
Like many cities and states, the City of
Philadelphia contracts with agencies to provide foster
care services for children in the government’s care.
And, like many cities and states, it prohibits all such
agencies from discriminating against potential
parents based on race, religion, sexual orientation,
and other characteristics unrelated to the ability to
care for a child. These policies help ensure that
children whom the government has removed from
their homes have access to every family that is ready,
willing, and able to care for them. In this case,
Catholic Social Services (“CSS”), a governmentcontracted foster care agency in Philadelphia, is
claiming a constitutional right to exclude families
based on its religious standards. Specifically, it is
unwilling to certify same-sex couples as meeting the
state’s standards for becoming foster parents.
CSS argues that its policy harms no one
because not all agencies discriminate and same-sex
couples willing to foster can find a different agency to
license them. Whether there are other agencies
available varies significantly depending on where you
live. But even in parts of the country where there are
multiple agencies, CSS is wrong: allowing any
discrimination in the public child welfare system
against same-sex couples who wish to become foster
parents can delay, deter, or entirely prevent a
qualified family from providing a temporary or
permanent home to a child who desperately needs it.
Forcing governments to allow discrimination against
same-sex couples thus harms the children those
governments are charged with protecting.

3
Amici Family Equality and PFLAG offer the
perspectives of LGBTQ adults who have tried to open
their homes to children who need them but were
prevented, deterred, or delayed from doing so by
discrimination.3 They attest to the reality that
agencies’ discrimination against same-sex couples
delays the availability of homes to children who need
them, leaves children in the system even though
there is a family available to care for them, keeps
siblings apart even when there is a family willing to
keep them together, and deters qualified parents
from fostering. Amici also share positive experiences
of children’s placements in LGBTQ-parent families
when discrimination does not stand in the way. On
behalf of these parents, their children, and children
who still need homes, Family Equality and PFLAG
urge the Court not to reduce the family placement
options for children in foster care by giving agencies a
constitutional right to discriminate against same-sex
couples.

All of the stories in this brief are about children in the
child welfare system. In contrast, the Brief of Amici Curiae
Former Foster Children and Foster/Adoptive Parents and the
Catholic Association Foundation filed on June 3, 2020, includes
stories involving private adoptions which would not be
impacted by this case.
3

4
ARGUMENT
I.

ALLOWING FOSTER CARE AGENCIES
TO DISCRIMINATE AGAINST SAME-SEX
COUPLES HARMS CHILDREN BY
LIMITING THEIR OPPORTUNITIES TO
BE PLACED WITH A LOVING FAMILY

Hundreds of thousands of children enter the
child welfare system in the United States every year,
with more than 400,000 children currently in foster
care.4 Due to the severe shortage of available foster
and adoptive homes, far too many children grow up in
out-of-home placements such as group homes,5 and
See The Adoption and Foster Care Analysis and Reporting
System Report, U.S. DEPT. OF HEALTH & HUMAN SERVICES:
CHILDREN’S BUREAU (Oct. 24, 2019) (“AFCARS Report”),
available at https://www.acf.hhs.gov/sites/default/files/cb/afcars
report26.pdf (last visited July 27, 2020).
4

See, e.g., Emily Wax-Thibodeaux, ‘We Are Just
Destroying These Kids’: The Foster Children Growing Up Inside
Detention Centers, THE WASHINGTON POST, (Dec. 30, 2019),
available at https://www.washingtonpost.com/national/we-arejust-destroying-these-kids-the-foster-children-growing-up-insidedetention-centers/2019/12/30/97f65f3a-eaa2-11e9-9c6d-436a0df4
f31d_tory.html (last visited July 31, 2020) (“[F]oster care
systems are now so overloaded that institutionalizing children is
becoming more common, and access to critical services … is
limited.”); Teresa Wiltz, As Need Grows, States Try to Entice
New Foster Parents, THE PEW CHARITABLE TRUSTS, (Mar. 1,
2019), available at https://www.pewtrusts.org/en/research-andanalysis/blogs/stateline/2019/03/01/as-need-grows-states-try-toentice-new-foster-parents (last visited July 31, 2020) (“[T]here
are more children who need foster care, and not enough families
to provide it.”).
5

5
approximately 20,000 young people “age out” of foster
care each year, entering adulthood without an
adoptive home.6 See Brief of FosterClub and Former
Foster Youth as Amici Curiae in Support of
Respondents (Aug. 20, 2020) (“FosterClub Brief”).
Same-sex couples represent a large pool of
interested and qualified foster and adoptive families.
In fact, same-sex couples are seven times more likely
than different-sex couples to foster or adopt.7 Further,
gay men and lesbians historically have been “very
willing to adopt children with special needs and, as a
demographic group, may be more willing to do so
than heterosexuals.”8 As one same-sex couple who
served as therapeutic foster parents for “hard-to-place
youngsters” noted: “More than one kid has told us

6

AFCARS Report, supra n.4.

Shoshana K. Goldberg & Kerith J. Conron, How Many
Same-Sex Couples in the U.S. Are Raising Children?, THE
WILLIAMS INSTITUTE: UCLA SCHOOL OF LAW (July 2018),
available at https://williamsinstitute.law.ucla.edu/publications/
same-sex-parents-us/ (2.9% of same-sex couples vs. 0.4% of
different-sex couples raise foster children; 21.4% of same-sex
couples vs. 3.0% of different-sex couples have an adopted child).
7

Expanding Resources For Waiting Children II:
Eliminating Legal and Practice Barriers to Gay and Lesbian
Adoption from Foster Care, EVAN B. DONALDSON ADOPTION
INSTITUTE at 12 (Sept. 2008) (“Donaldson Report”), available at
https://docplayer.net/63117222-Policy-practice-perspective.html
(last visited Jul. 27, 2020).
8

6
that they do not know where they would be today if
they had not met us.”9
CSS ignores the impact of discrimination on
children in foster care. It claims there is no harm to
children or families because same-sex couples can go
to other agencies that will accept them. The reality –
as parents and would-be foster and adoptive parents
explain throughout this brief – is that discrimination
prevents children from being placed with or adopted
by parents who are willing and able to care for them.
It has delayed placements, leaving warm bedrooms
empty while children languished in less supportive
care. It has driven potential foster parents out of the
system altogether, resulting in fewer available homes
for children. And in some cases, it has resulted in
children being left with no home at all. The rule of
law CSS seeks here will harm countless more
children in these same ways.

Ronald Bernard-Rivera Statement to Family Equality
(June 25 & 26, 2020).
9

7
A.

Discriminating Against Same-Sex Couples
Harms Children by Deterring LGBTQ
Adults from Serving as Foster Parents

It takes an incredible amount of courage to ask
someone to judge whether you have a suitable home
for a child. If a family calls an agency and is told the
agency will not serve them because of who they are—
even if they are directed to other agencies that might
work with them—that could well mean that the first
call that family makes is also the last call.
Katie Page Sander (Detroit, Michigan), Executive
Director, Hands Across the Water child placing
agency and 23-year veteran in child welfare field10
CSS acknowledges that this country faces a
desperate shortage of foster parents. Petitioners’
Brief, pp. 11-12 (May 27, 2020). Yet the result it seeks
from this Court would exacerbate the problem by
driving capable parents from the ranks of those
opening their homes to some of the nation’s most
vulnerable children. CSS’ assumption that same-sex
couples will keep knocking on agency doors until they
find one that does not reject them ignores the impact
of discrimination.
Discrimination is painful and, as the first-hand
accounts below demonstrate, it can have a chilling
effect on same-sex couples’ willingness and ability to
move forward with plans to foster or adopt. As this
Katie Page Sander Statement to Family Equality (June
25 & 29, 2020).
10

8
Court has recognized, discrimination “generates a
feeling of inferiority as to [individuals’] status in the
community that may affect their hearts and minds in
a way unlikely ever to be undone.” Brown v. Bd. of
Educ., 347 U.S. 483, 494 (1954). It “deprives persons
of their individual dignity,” Roberts v. U.S. Jaycees,
468 U.S. 609, 625 (1984), and harms families. United
States v. Windsor, 570 U.S. 744, 772 (2013)
(discrimination against same-sex couples has a
harmful impact on the couples and their children).
When same-sex couples face discrimination by child
welfare agencies, the harm is exacerbated by the
history of discrimination against LGBTQ people in all
aspects of life.
As the experiences recounted below illustrate,
CSS’ asserted constitutional right to reject same-sex
foster parents would deter qualified foster and
adoptive parents, depriving children in care of the
much-needed homes those parents would offer.
For example, Samantha Hutcherson Bannon
and her wife, an emergency medicine doctor, were
raising two daughters when they decided to explore
fostering a refugee child. They learned that Bethany
Christian Services (BCS) was the agency in their area
(near Philadelphia) that worked with refugee
children, and they attended a BCS information event.
However, when Samantha “shared with the staff that
we are a two-mom family … the 3 staff members
present were clearly uncomfortable with this

9
information.”11 One of them advised that BCS had
“never worked with a same-sex family before” and
offered “information about organizations in the area
that worked with families like ours to become foster
parents.”
Samantha
explained
that
they
were
“specifically interested in fostering a refugee child
and, as [the staff person] knew, there were limited
organizations that handled these placements.” The
agency, however, was unwilling to accept them and,
given how “insulting and embarrassing” the
discrimination was, they “decided not to pursue any
further inquiries.”
April and Ginger Aaron-Brush of Alabama
have a daughter and, “after careful thought, …
decided to share [their] hearts and [their] home with
another child by being foster parents.” 12 But they hit
a wall of resistance, and the sting of discrimination,
combined with the lack of other options, prevented
them from doing so.
First, they contacted two faith-based agencies,
each of which turned them away “almost
immediately.” Next, they tried working through a
local state agency, which offered information
reluctantly and did not answer the couple’s questions,
Samantha Hutcherson Bannon Statement to Family
Equality (Aug. 28, 2018 & Dec. 18, 2019).
11

April & Ginger Aaron-Brush Statement to Family
Equality (Sept. 2018 & Dec. 16, 2019).
12

10
leaving them feeling “scorned and deterred.” As April
explains:
We started asking around, and learned
that many LGBT people who seek to
foster or adopt have the same experience
and that there is only one person at the
agency who will work with LGBT people
and same-sex couples and it is the luck
of the draw to get that person.
Apparently, we did not get that person,
because despite our best efforts and
being very persistent, we found
ourselves at a dead end with no path
forward.
April and Ginger never became foster parents. “We
wanted to provide a safe and loving home to a child,
and there was no foreseeable option for doing so in
our area. So, we finally gave up. It is heartbreaking.”
Similarly, Valarie St. John and her wife, who
adopted a son through a kinship placement, stopped
trying to adopt other children from the child welfare
system after years of rejected attempts:
[W]e no longer have the emotional
energy
to
continue
to
endure
discrimination
and
submit
futile
inquiries. It has hurt too much to watch
children remain in foster care when we
very much wished to be their parents.

11
We are also not willing to let our son see
his parents be discriminated against.13
B.

Discriminating Against Same-Sex Couples
Harms Children by Preventing Would-Be
Placements

The three brothers [we sought to adopt] have remained
apart. It’s heartbreaking – three brothers could have
stayed together in one family and discrimination got
in the way.
Clint McCormack (Northville, Michigan)14
For some children, the consequence of
discrimination against prospective parents is
remaining in foster care when there is a family
willing to adopt them. For others, it can be missing
an opportunity for siblings to be kept together or
reunited. All the while, same-sex couples who wanted
to welcome them into their families were sidelined
solely on the grounds of their sexual orientation.
Valarie St. John and her wife were licensed as
foster parents in Ohio and spent years trying to adopt
children through agencies in various states. They
“made numerous inquiries through AdoptUSKids,”
which lists children across the country who are in
foster care and eligible for adoption. Many of their
inquiries
“were
rejected,
in
writing,
from
13

St. John, supra n.2.

Clint McCormack Statement to Family Equality (June 29
& July 8, 2020).
14

12
caseworkers, because they were ‘not considering
same-sex couples.’”15
“One social worker in North Carolina directly
stated that they would not place children with a
same-sex couple, so we stopped inquiring about
children in that state.” When they asked about a
group of four brothers in Nebraska who were
awaiting adoption, they were told the boys “had
already found a suitable family.” But two years later,
the children were featured in an article from the
agency as still being available for adoption. “I
followed up to ask if their ‘suitable family’ had fallen
through, and if my wife and I could now be
considered, but never received a response.”
Valarie and her wife later tried to adopt a nineyear-old boy in Michigan but were told the agency
would not consider a same-sex couple. “At least once a
year since then, I have checked … and even today,
[six] years later, he is still in foster care and listed as
available for adoption.”
Similarly, a 10-year-old Puerto Rican child
remains in foster care after four years of
discrimination prevented Christopher Matos-Rogers
and his husband from adopting him. Christopher’s
husband is Puerto Rican, and “[a]s a bilingual [and]
interracial home, we felt our family could be a strong
match to provide the child not only with support and

15

St. John, supra n.2.

13
love, but with connection to his culture and language
of origin.”
We inquired to the child’s caseworkers
… and were met with disinterest.
Undeterred, we followed up with our
caseworker … and had her reach out to
the child’s caseworker. The child’s
caseworker responded once, stating we
were not a match, and would never
respond to another request from our
caseworker.
Christopher and his husband were matched
with and adopted a sibling group but “would
occasionally check [the boy’s] adoption status on the
Georgia adoption website.” As he was still available
for adoption, they inquired about him several more
times over the next few years, only to be ignored.
After three years of inquiring about him, they
reached out to the State Director of Placements, who
confirmed the boy was still waiting to be adopted.
Christopher and his husband “jumped at the chance.”
We received his child life history, and
that is where we saw it – [his]
permanency plan, written by Bethany
Christian
Services
in
2015,
recommended that he be placed with
either a single mom or a heterosexual
couple. That’s why, for all these years,
he was denied placement with our
family. [He] could have begun his life

14
with us in 2016, but … discrimination
stopped that from happening.
Unfortunately, they were unable to transition
the boy into their home due to additional resistance
and bias from the foster parent. “With 4+ years of
roadblocks,” Christopher and his husband “sadly
accepted the reality that it just was not going to
happen,” and the boy is likely to age out of the
system.16
Jackie Bruckman and Sharlene Rednour’s
social worker introduced them to a twelve-year-old
boy who had been separated from his three older
siblings and had been in foster care for eight years.
He was a hard to place preteen, who was eligible for
adoption and needed a home. Jackie explained:
We met for ice cream and hung out in a
park. We got along fantastically—we let
the social worker know that we were
happy to meet again. …
After the meeting he told the social
worker he liked us and would love to
meet again. … Older adoptions at or
near teenage years are rare, especially
for [young] black men. We learned that
he had an older brother who was … in a
group home, and after they told us all

16

Matos-Rogers, supra n.1.

15
about him we said we were open to
taking them both.17
But neither boy was placed in their home.
“[W]hen the county worker in charge of the young
man’s case learned that we were a same-sex couple,
she immediately stopped the placement.” Instead of
being placed in Jackie and Sharlene’s safe and loving
home with his brother as a foster-to-adopt
placement, both children remained in the system.
We have often wondered about him and
his brother too. They would be in their
20’s now. … It is heartbreaking to think
that they were denied their opportunity
to be reunited and [given their ages]
likely spent their teenage years in the
system and eventually aged out when
we were willing to bring them into our
family and adopt them both.
It was equally heartbreaking for their social
worker, Heidi Haddad, who was prevented from
making decisions in the children’s best interest due
to discrimination of those in charge at the county.
She stated:
This family, with a proven history of
providing a stable and devoted home,
was ready and willing to offer love and
permanency to 12- and 15-year-old
Jackie Bruckman & Sharlene Rednour Statement to
Family Equality (June 29 & Aug. 4, 2020).
17

16
brothers. Two teenaged black boys, with
three knocks against them simply
because of their age, race and sex, were
on the cusp of changing the course of
their lives forever. Then, in the face of
discrimination, I watched as the usual
protocols and protections of these young
men fell away. … This kind of bias put
the entire system at odds with the very
philosophy upon which it was founded.18
Discrimination
also
prevented
Clint
McCormack and his husband from reuniting three
brothers. They began by fostering a boy who had
already been in three foster homes: “He was a high
needs child who was bouncing off the walls and
nonverbal, and he was on 15 different medications.
… Under our care he was taken off all but two of his
medications. He became brighter and more alert the
longer he was in our home.”19
Clint and his husband offered to adopt both
the child and his brother, who remained in a
different foster home. “[B]ut the other foster family
didn’t want the children to have gay parents[, and
t]he agency allowed the boys to remain separated.”
Then, Clint learned that the boys’ birth mother had
another child and offered to foster-to-adopt the
infant. The state-contracted, faith-based agency
18

Heidi Haddad Statement to Family Equality (July 8 & 20,

2020).
19

McCormack, supra n.14.

17
refused their request, and the brothers remained
apart.
C.

Discriminating Against Same-Sex Couples
Harms Children By Delaying Placements
and Permanency

There is a shortage of available homes for children in
the foster care system and allowing agencies to turn
me and other LGBT prospective parents away simply
because of our sexual orientation only makes it harder
for these kids to be placed with a family. I know my
son would have been institutionalized and aged out of
the system with no supports without me, and I don’t
want to see others suffer that fate when a loving home
is waiting to take them in.
Walter Illes (New Port Richey, Florida)20
According to Katie Page Sander, the executive
director of a child placement agency in Michigan:
In my twenty-three years of experience
in child welfare …, we have never
achieved the goal of having adequate
resources for children in need of foster
care placement. It is not uncommon for
days and weeks to pass while a child
moves from temporary placement to
temporary placement before a family is
found, often a great distance from their

20

2020).

Walter Illes Statement to Family Equality (July 7 & 8,

18
friends, school and family or split from
their siblings.21
Against this backdrop of critical need, policies that
delay placing children in qualified and available
homes based solely on the sexual orientation of the
parents who want to care for them must be
prohibited.
For Lara Mayhew and Jennifer Zilka of St.
Louis, discrimination delayed fostering for a year.
Committed to serving children in the foster system,
Lara and Jennifer first became court-appointed
special advocates (CASAs) and then sought to become
foster parents. The state agency they first contacted
was “over-taxed” and unable to work with them, so
they contacted a faith-based state-subcontracted
agency that turned them down “because [they] were
lesbians.” They share:
Our journey continued with one hurdle
after another, which contributed to a
delay in our ability to provide a safe and
loving home to a child in need. We sat
for an adoption interview with a team
comprised of caseworkers of another
local agency and … were specifically
passed over for adoption and eliminated

21

Page Sander, supra n.10.

19
because we were not a “traditional
family.”22
A full year after offering to foster, a child was
finally placed in Lara and Jennifer’s home, and they
adopted him a year later. “Our son is now 4 years old
and thriving.” Their insight into the acute need for
homes in St. Louis made the delay especially
appalling to Lara and Jennifer, who explain, “As
certified CASAs, I cannot express how disconcerting
it is to know how many children are in the system in
need of good homes, only to find out that this fact is of
no consideration when reviewing LGBTQ families.”
Lara and Jennifer are keenly aware that in
addition to needlessly depriving children of a home, a
year of discrimination would deter many would-be
foster parents: “Our experience was very frustrating
and were this anyone else [without extensive
involvement in the foster care system], we probably
would have given up.”
Dr. Tony Lamair Burks II of Atlanta, Georgia,
lives
with
“uncertainty
and
concern
that
discrimination will cause further delays” in the
adoption of his and his same-sex partner’s daughter,
which is still pending. She was placed with them in
July 2018, just before she turned five. They “were told
the adoption process would take six to nine months,”

Lara Mayhew & Jennifer Zilka Statement to Family
Equality (Sept. 10 & 13, 2018).
22

20
but after nine months “really nothing
happened.” After more delays, they learned:

much

[O]ur application was sitting on the desk
of someone outside the agency who was
in charge of processing adoption
applications. The person was blocking
our application and confessed that his
faith would not allow him to help two
men adopt a child. … To this person, it
did not matter that she was a child who
was matched with us, who was safe,
happy, and loved in our home, who was
eligible for adoption, and in a state with
over 12,000 children and youth in care
needing homes.23
Their agency advocated for them, and now
their application is moving forward. However,
uncertainty remains, and they are “concern[ed] that
discrimination will cause further delays,” leaving
their child without the legal protections of adoption:
The delays and roadblocks were
completely unnecessary … [W]e cannot
breathe with ease until the adoption is
finalized and she is our daughter in the
eyes of the law. She has been our
daughter in our hearts since the day
we met her … yet, she remains [in

Dr. Tony Lamair Burks II Statement to Family Equality
(July 7 & 8, 2020).
23

21
the child welfare system] because of
discrimination.
Since 2013, Mary Olive-Allison and her wife
have fostered thirteen children, including one child
they adopted. The adoption was delayed for more
than two years, leaving the child in legal limbo
without the protections of a parent-child relationship.
“The longer it took, the more we were able to see that
[anti-LGBTQ] discrimination and prejudice were the
driving factor for the delays.”24 Though they continue
to foster, the discrimination has caused them to
consider quitting:
We’re currently caring for 3 kids,
including a baby, and the hardest part of
all of it is worrying about the only
agency that we can use trying to take
our foster children away or not let us
adopt them after being their only
caregivers just because we are lesbians.
That shouldn’t be the hardest part of
taking care of kids! We want to foster
and continue to open our home and
hearts to children when they need it but
the longer this [discrimination] goes on,
the harder that seems.
When David Dickson and his husband Robert
became licensed foster parents in Georgia, they “were
told on several occasions that [they] were not
Mary Olive-Allison Statement to Family Equality (Sept.
11, 2018 & June 2, 2020).
24

22
receiving calls for placement because [they] were a
‘nontraditional family.’”25 They explain: “We had
three empty bedrooms to accept kids in need but we
were continuously overlooked.” David and Robert
eventually had four children placed with them, all of
whom are thriving. But they wonder whether there
were other children who needed homes while those
bedrooms remained empty. “Seeing our four kids now
growing into such loving and caring people reminds
me that every child in the foster care system deserves
a chance, a home, and to be loved unconditionally.”
As a special education teacher in Florida,
Walter Illes “had worked with kids for 15 years, so
[he] knew [he] could provide a great home.”26
Wanting to help kids in need, he “went to the only
agency in [his] county that [he] knew of at the time.”
Walter became certified as a foster parent, but the
agency never contacted him with any placements. He
later learned that “the first agency never even wrote
up [his] home study.”
Nevertheless, through his own efforts, Walter
learned of a boy who needed a home:
He was 12 years old, had been in the
foster care system since he was a baby,
and could not be placed in a home with a
female for safety reasons. I knew that,
David & Robert Dickson Statement to Family Equality
(June 14, 2020).
25

26

Illes, supra n.20.

23
without me, his chances of being adopted
and finding a permanent family were
close to zero, and I knew that I could
provide that love and stability for him.
So, I reached out to my agency again,
and again, and again … without a
response.
It took Walter two years to find an agency
that would help, and the child was finally placed in
his home. The boy had been severely abused while in
the child welfare system: “I was his 17th placement.
… After many years of therapy, he grew into a fine
young man that I was proud to call my son.”
Tragically, Walter’s son died in 2017, leaving Walter
haunted by the knowledge that his son “could have
had a home with [him] two years earlier had it not
been for the needless delays.”
Kristy and Dana Dumont were moved to
become foster parents because Dana – a Michigan
state employee – received e-mails from the state
Department of Health and Human Services about the
large number of children who needed loving homes.
“So, we moved into a bigger house in a better school
district, ready to start a family.” As they explain:
We specifically wanted to work with an
agency close to our home, because we
knew from our own research that being
foster parents requires a lot of classes,
visits, and time. Since we both have full

24
time jobs, we wanted to make sure we’d
be able to balance everything.
It was also important to us to pick an
agency nearby because these children’s
lives have already been so disrupted,
and they might have family or support
systems nearby so we wanted them to be
close to their home as well, instead of
causing further disruption by making
them move too far away.27
But the only two viable agencies close to the
Dumonts’ home at the time (2016-2017) turned them
away, refusing to place children with same-sex
couples. The Dumonts were shocked: “How can the
state justify keeping a child in state care simply
because [the agencies] wanted to turn away LGBT
parents – what happens to all of those kids, waiting
for a family?”
The Dumonts were able to “bring two
wonderful sisters, ages 11 and 6, into [their] home in
December 2019. Before that, [the girls] had been
moved around to three different homes in just six
months.” The Dumonts “have been fostering them for
seven months now and are so happy to provide them
with the stable, loving home they deserve.” But, as
they point out: “We can’t help but think of … all the
other children who don’t get the chance to find foster
Kristy & Dana Dumont Statement to Family Equality
(July 7 & 8, 2020).
27

25
and adoptive homes because of discrimination.” Like
most children in Michigan’s foster care system, the
placement goal for the two sisters currently being
fostered by the Dumonts is to ultimately be reunited
with their birth parents. The Dumonts plan to
continue fostering and adopting from the Michigan
child welfare system to provide a home to children in
need.
*

*

*

As these examples illustrate, the harm of
allowing agencies to discriminate is very real:
families are deterred, delayed, or prevented from
fostering, keeping children from a desperately needed
home for days, months, or years, if not forever.
II.

WHEN DISCRIMINATION DOES NOT
STAND IN THE WAY, SAME-SEX
COUPLES PROVIDE SAFE AND LOVING
HOMES FOR CHILDREN WHO
DESPERATELY NEED THEM

We became therapeutic foster providers, which was a
crash course in parenthood. In the 3 years as foster
dads, we welcomed 13 kids into our home, each with
different stories and each with specific needs. Some
stayed a few days, others for a few months, and a
couple for more than a year. … We met our son as
foster parents. He came to us hurting; feeling
abandoned and rejected. He was very angry with the
life he’d been torn from. It took some time to build
trust and cooperation. … Our greatest moment was

26
the day we got to reveal that we were going to be his
parents.
Paul Rummell & Ben West (Wilsonville,
Oregon)28
I still after eight years think about what all our kids
went through at such a young age and it breaks my
heart. I have seen and heard so many tragic stories
during our time in the foster care system and to think
there are some that want to deny loving people from
helping these kids in need is a tragedy in itself.
David and Robert Dickson (Rancho Santa
Margarita, California)29
There is no doubt that same-sex couples
provide loving, nurturing homes to foster children in
need. Decades of social science research shows that
LGBTQ parents are no different than heterosexual
parents in terms of their ability to raise happy,
healthy, and well-adjusted children. See, e.g., Michael
E. Lamb, Mothers, Fathers, Families, and
Circumstances:
Factors
Affecting
Children’s
Adjustment, 16 APPLIED DEV. SCI. 98, 104 (2012);
Obergefell v. Hodges, 135 S.Ct. 2584, 2600 (2015)
(“[A]ll parties agree, many same-sex couples provide
loving and nurturing homes to their children,
whether biological or adopted.”).

Paul Rummell & Ben West Statement to Family Equality
(Aug. 2018).
28

29

Dickson, supra n.25.

27
Matthew Ramsey’s sons arrived at his home as
“3 and 4-year-old bundles of energy, coupled with
some elements of trauma.”30 Seventeen months later,
Matthew and his husband “adopted [their] boys and
officially became a forever family. The boys are about
to start fourth and fifth grades, and [Matthew has]
had front row seats in watching them grow and
flourish.” Matthew has a message for “all those
agencies who would discriminate: There’s no such
thing as too much love. Stop getting in the way.”
Richard and Aaron Hooks Wayman, who have
fostered nine children (six of whom they adopted) in
Minnesota and Maryland, feel “very lucky to find
welcoming, inclusive, and accommodating child
welfare systems” in those states.31 They found the
approach of each of the foster care licensure training
courses “to welcome us into their community, offer us
specific and relevant training … and encourage us in
our journey to become foster parents was simply
wonderful,” helping them go “from hesitation and
worry to being excited about our role as advocates
and care takers for our children.”
After nearly 20 years of being a foster and
adoptive parent, Richard says, “I can’t imagine my
life without my children and know that they feel safe,
loved, and happy to be a part of our family.” It is
30

Matthew Ramsey Statement to Family Equality (Aug. 20,

2018).
Richard & Aaron Hooks Wayman Statement to Family
Equality (Dec. 17, 2019).
31

28
difficult for him to accept that discrimination keeps
children like his from parents like him: “With so
many children stuck in foster care, group homes, or
health institutions waiting for a forever and
permanent home, it breaks my heart to think of all
the missed opportunities that result when states
place unreasonable blockages to foster care licensure
or adoption for some families.”
Sharlene Rednour and Jackie Bruckman know
first-hand that welcoming all qualified prospective
families “is crucial for children to find safe and loving
homes that they can thrive in.” Sharlene explains:
If we [had not] seen our agency at a
LGBTQ event we might not have signed
up. I cannot even imagine it but our first
two children … were placed with us as
“hard to place” children meaning that if
we didn’t adopt them, they probably
would not have been adopted. They
would now be 14- and 15-year-old Black
[teenagers] in the foster care system…,
and [t]he statistics are such … that the
outcomes may not have been great.32
In Sharlene and Jackie’s home, the boys have “grown
up to be the love and light of our lives, they are great
students, popular with their friends and teachers,
star athletes and respectful community members.”

32

Bruckman & Rednour, supra n.17.

29
Sharlene and Jackie also adopted a nowthriving 27-year-old who, at age 15, was fewer than
three years away from aging out of the system. They
explain, “He needed a lot of love and often says that
he needed 2 moms to get enough mothering.”
Rob and Reese Scheer have adopted five
children.33 Though they initially planned on only one
child, they were asked to foster a sibling pair. Rob,
himself a former foster youth, “knew what he had lost
entering the system separated from his brothers and
sisters,” and the Scheers “would not allow that to
happen to any children in [their] care.” Three months
later, two more brothers needed a home. “We were
delighted to welcome them, too.” Ultimately, they
adopted all four children.
Last year, discrimination nearly prevented the
Scheers from adopting their fifth child, an 18-year-old
who had been in and out of foster care since age five
and was on the verge of aging out:
Due to our extensive prior advocacy and
experience in the foster care system, we
had the right connections within the
system to circumvent this obstacle and
move forward with the adoption. Had
we not had existing relationships with
child welfare officials and experience
navigating the system, the discrimination

Rob & Reece Scheer Statement to Family Equality (June
18 & 25, 2020).
33

30
we faced might have prevented us from
providing a permanent, loving family for
our son.
Like too many others who age out, he
likely would have ended up homeless.
Instead, he has two loving parents, four
siblings, has graduated high school with
a 3.6 GPA and is headed to college in the
fall.
Like the Scheers, Clay Van Batenburg and his
husband encountered discrimination when adopting
their sons, but, as a licensed clinical social worker,
Clay “was well aware that California law prohibits
such discrimination.” Armed with these protections,
he was able to nip the issues in the bud.34 But he
knows that “had we lived in a state that did not have
nondiscrimination laws in place to protect us and
our sons from anti-LGBTQ discrimination, the
discrimination we faced may have prevented us from
becoming a family.”
Jamie and Bo Nabozny recount their journey of
adopting a sibling group of four:
The boys were 7 and 9 years old. …
They wanted two people who would love
them unconditionally. We were ready
and able to do exactly that. It was a
wonderful match, and we thought that
Clay Van Batenburg Statement to Family Equality (June
5 & 17, 2020).
34

31
our family was complete but little did
we know it was not.
Eventually we were asked to adopt
[their older] … brothers, who were 11
and 13 years old. It only took about two
minutes for us to say “yes.” And now we
have 4 amazing sons and our family is
complete. Without the support and
acceptance of our agency – or if we had
encountered discriminatory barriers
that deterred or prevented us from
adopting – our [children’s] story may
have ended differently or we may have
chosen not to pursue adoption at all.35

Jamie and Bo Nabozny Statement to Family Equality
(Aug. 2018).
35

32
III.

LGBTQ FOSTER PARENTS HELP MEET
THE DIVERSE AND UNIQUE NEEDS OF
CHILDREN IN CARE

When we started fostering, any youth that had selfdisclosed that they were LGBTQ or questioning had a
safety plan and a behavioral flag attached to their file.
It left many of the older youth in group home[s]. … We
were often sought after to provide placement for these
youth but as only one couple we couldn’t take
everyone.
Amanda and Deena Cruce (Gainesville, Florida),
who in eight years have adopted six children and
fostered over 50 youth36
In addition to the need for as many qualified
families as possible, the interests of children are best
served when the pool of foster parents reflects the
diversity of the children in care and is broad enough
to meet their individual needs. Based on her 23 years
working in the child welfare field, Katie Page Sander
explains:
A child relies on the agency in charge of
their care to find an appropriate family
to best meet their unique needs while
they are separated from their families,
which requires a diverse pool of families.
… Allowing an agency to narrowly
decide who is worthy to parent, not
Amanda and Deena Cruce Statement to Family Equality
(June 5, 2020).
36

33
based on any assessment of safety,
capacity or resources, ignores our
primary responsibility as child welfare
agencies, to meet the needs of ALL
CHILDREN in our care.37
Allowing faith-based agencies to discriminate
against families who do not meet their religious
standards undermines the best interests of children
in care. As the accounts below illustrate, for some
children, LGBTQ families are the best fit.
Morgan and Lyndsay Hayes recount how their
daughter had first been placed with a different-sex
couple.38 When that placement failed, case workers
determined that, because of past trauma she had
experienced, “she needed a home without males,
which made her difficult to place.” Their daughter’s
case worker “was thrilled when a same-sex [female]
couple was matched with” her. “Through therapeutic
parenting and a lot of trial and error, we have become
a strong family together and now that our daughter
has a stable, loving home, she has been able to build
healthy relationships with multiple safe male friends
and family.”
Similarly, the 12-year-old boy that Walter Illes
fostered and ultimately adopted, see supra at 22,
“could not be placed in a home with a female for
37

Page Sander, supra n.10.

Morgan & Lyndsay Hayes Statement to Family Equality
(June 11, 2020).
38

34
safety reasons,” which had diminished the boy’s
likelihood of finding a long-term placement or
permanent family.39
And Ronald and Miguel Bernard-Rivera
fostered a 12-year-old boy who had been removed
from his previous home after incidents involving
“touch[ing] girls and women inappropriately.”40 His
social worker determined he should not be placed in a
home with women or girls.
Since we were a gay [male] couple, he
was able to be in our household without
putting anyone in danger. The social
worker made an emergency placement
with us. The only other option he had
would have been to put him into a
juvenile detention facility since any
group homes with beds also had girls or
female staff. We worked with him on
understanding personal boundaries and
treating others respectfully.
Similarly, Stacey and Laura Freeman of
Maryland fostered siblings who, “due to extreme
trauma,” benefited from a home without males. The
Freemans are heartened that their county “places

39

Illes, supra n.20.

40

Bernard-Rivera, supra n.9.

35
children in homes which best benefit the child,” using
“diverse families[,] inclusive of LGBTQ people.”41
Same-sex couples can also provide uniquely
supportive homes for LGBTQ youth, who are
disproportionately represented in the foster care
system.42 In Katie Page Sander’s experience, many
LGBTQ youth “specifically ask for a family that is
supportive of their sexual orientation and gender
identity” and some “specifically ask[] to be placed
with a family who is part of the LGBTQ
community.”43
Sharlene Rednour and Jackie Bruckman recall
receiving a call about a teenager from their
placement worker, telling them that “it was breaking
her heart to ‘put him into another homophobic
home.’”44 Sharlene and Jackie met him that evening
and immediately agreed to take him in. “[He] was 15
years old. … We were his 13th foster home.”
Sharlene and Jackie understood how damaging
it had been for the teenager “to hide who he was, or
he might be kicked out,” even facing physical threats.
Others, even a case worker who was “a straight ally

Stacy & Laura Freeman Statement to Family Equality
(Feb. 27, June 24 & 26, 2020).
41

Former foster youth speak for themselves in the
FosterClub Brief, supra p. 5.
42

43

Page Sander, supra n.10.

44

Bruckman & Rednour, supra n.17.

36
who truly cared for him,” had failed to see that the
reason the boy constantly missed the school bus in
the morning was “[b]ecause it was filled with other
teenagers who bullied him.” Once in their home, he
“was thrilled to have a gay family and could finally
relax and let his shoulders down a little.”
Keli’i Krueger’s wife met their son when, as a
mental health worker in Brevard, North Carolina,
she was helping him move from a group home to an
adoptive home.45 After a few visits, the potential
adoptive family “realized that he was gay [and]
abruptly stopped the adoption process,” sending him
back to his group home. Keli’i and her wife became
licensed foster parents, and within a few months, the
boy moved in with them. Three years later, they
adopted him. “We parented a boy that was unwanted
by many. It was a challenge in many ways, but I am
so glad to be his mother.”
As Keli’i explains: “LGBTQ kids need parents
who will love, support, and advocate for them…. [T]he
suicide rate for LGBTQ kids is alarmingly high. Kids
in foster care are already facing so many challenges,
it is crucial that they are placed with open and
affirming families.”

Keli’i Krueger Statement to Family Equality (June 29 &
30, 2020).
45

37
CONCLUSION
CSS asks this Court to recognize a
constitutional right for taxpayer-funded foster care
agencies to turn away qualified same-sex couples
based on agencies’ religious objections to such
families. To serve the hundreds of thousands of
children in the foster care system, we need more
foster and adoptive parents. And to give these
children the best opportunity to thrive, we need that
pool to be more – not less – diverse.
Discrimination against same-sex foster and
adoptive parents has delayed placements, keeping
children in less supportive environments longer than
necessary; it has prevented children from being
placed with or adopted by parents who wanted to care
for them; and it has driven desperately needed foster
and adoptive parents out of the system altogether.
The Court must not allow the religious beliefs of
taxpayer-funded foster care agencies to outweigh the
best interests of the children our governments are
expressly charged with protecting.
For all of these reasons, the Court should
affirm the judgment below.
Dated: August 20, 2020

38
Respectfully submitted,
s/Katherine Keating
Katherine Keating
Counsel of Record
BRYAN CAVE LEIGHTON PAISNER LLP
Three Embarcardero Center
7th Floor
San Francisco, California 94111
415-675-6400
William J. Hibsher
Elizabeth Goldberg
Laith Hamdan
Michael Neville
BRYAN CAVE LEIGHTON PAISNER LLP
1290 Avenue of the Americas
New York, New York 10104
212-541-2000
Shelbi D. Day
Mary P. Rohmiller
Denise E. Brogan-Kator
FAMILY EQUALITY
475 Park Avenue South, Suite 2100
New York, New York 10016
646-880-3005
Counsel for Amici Curiae
Family Equality and
PFLAG National

